Service List for No. 20-1735 (ACLL Amicus Brief)
Counsel for Petitioners
John Michael Connolly
Counsel of Record
Consovoy McCarthy PLLC
1600 Wilson Blvd
Suite 700
Arlington, VA 22209
703-243-9423
mike@consovoymccarthy.com
Party name: Angel Manuel Ortiz-Diaz, et al.
Counsel for Respondents
Elizabeth B. Prelogar
Counsel of Record
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov
Party name: United States, et al.

